<html>
<title> - THE STATE DEPARTMENT AND USAID FY 2018 AFRICA BUDGET</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          THE STATE DEPARTMENT AND USAID FY 2018 AFRICA BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

                           Serial No. 115-85

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
27-162PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e0f7e8c7e4f2f4f3efe2ebf7a9e4e8eaa9">[email&#160;protected]</a>                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Yamamoto, Acting Assistant Secretary, Bureau 
  of African Affairs, U.S. Department of State...................     4
Ms. Cheryl Anderson, Acting Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    12

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Yamamoto: Prepared statement................     7
Ms. Cheryl Anderson: Prepared statement..........................    15

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
Written responses from the Honorable Donald Yamamoto to questions 
  submitted for the record by:
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey, and chairman, 
    Subcommittee on Africa, Global Health, Global Human Rights, 
    and International Organizations..............................    40
  The Honorable Ami Bera, a Representative in Congress from the 
    State of California..........................................    52
Written responses from Ms. Cheryl Anderson to questions submitted 
  for the record by:
  The Honorable Christopher H. Smith.............................    57
  The Honorable Ami Bera.........................................    66

 
          THE STATE DEPARTMENT AND USAID FY 2018 AFRICA BUDGET

                              ----------                              


                      WEDNESDAY, OCTOBER 11, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
afternoon to everybody. Thank you for being here.
    I really deeply appreciate our two distinguished witnesses 
who are here today to give us an inside look at the budget as 
it relates to Africa and where the challenges are and where 
funding will potentially increase.
    As you know, the appropriations budget that has passed the 
House clearly indicates that there were some differences of 
opinion as to how much and where we should be spending that 
money. And I think we have come to a consensus, at least on the 
Republican side, that extraordinary, important programs like 
PEPFAR, the President's Emergency Plan for AIDS Relief, a 
number of the refugee programs, and a whole lot of other 
programs that deal with infectious diseases like tuberculosis 
need to be funded in a very robust way in order to save lives 
and to mitigate dangers, especially to women and children.
    We also have a very strong commitment on this committee and 
from our leaders from the State Department ensuring that 
refugees in a world where we have more refugees and IDPs 
perhaps than ever before, and disproportionately in sub-Saharan 
Africa, that we ensure that the resourcing is there from food 
to medicine to shelter.
    Just recently, in June, Ranking Member Karen Bass and I did 
visit some of the refugee camps including Bidi Bidi Camp and 
had a very important take away that our food security, that 
money that we were providing for food and medicine was being 
used very efficiently and compassionately. We also saw it in 
the IDP camps especially in Unity State in South Sudan where 
again because of the generosity of the American people, people 
were getting adequate food and shelter and medicine.
    Obviously, this commingles and works synergistically with 
the United Nations' efforts, particularly in camps that are run 
by the Office of the United Nations High Commissioner for 
Refugees (UNHCR), so I think that partnership, as in the past, 
as in the present, and looking into the future, bodes well for 
doing everything humanly possible to assist.
    There are always concerns about budget cuts. I think they 
are in the process of being mitigated by congressional action 
and that is a good thing in my opinion. Because again, for the 
weakest and most vulnerable among us, particularly refugees, 
particularly women and small children in dire situations where 
famine and other disasters are wreaking havoc on them, it is 
important to ensure that we get those resources to them in a 
timely fashion again to ensure survival and hopefully 
prospering.
    Finally, one of the programs I consider to be among the 
greatest ever conceived is the first 1,000 days from conception 
to the second birthday where through adequate food security, 
children and mothers are made healthier. If ever there was a 
program that boosts immunity, ensures that mother and baby are 
healthier and can thrive, it thwarts the whole idea of 
stunting. In countries where there has been embrace of this 
important first 1,000 days of life, and it is part of, 
obviously, the fabric of the Global Food Security Act which I 
was the House sponsor of, and worked very closely with Dr. 
Shah, previously with the U.S. Agency for International 
Development (USAID). And I have been with Ambassador Green, the 
new USAID Administrator, is a wonderful man to take the helm of 
USAID. As our former Ambassador to Tanzania, also he worked for 
IRI, so he gets the democracy piece, but also sat on this 
committee, my committee, years ago.
    And to have him in such a prominent and gatekeeper position 
and Cheryl Anderson, I am sure you will agree, he is a man with 
tremendous competence and compassion who will make a huge 
difference at USAID. And so we are certainly grateful that he 
is at the helm.
    I would like to yield to my good friend and colleague, Ms. 
Bass.
    Ms. Bass. Thank you very much, Mr. Chair. I want to welcome 
the Acting Assistant Secretary Donald Yamamoto and Acting 
Assistant Administrator Cheryl Anderson and thank you both for 
joining us today.
    One of the things I always appreciate about this committee 
is the fact that so much of our work is on a bipartisan basis 
and especially as it relates to the continent of Africa. As I 
was walking in, I heard the chairman describe our trip to 
Uganda and to South Sudan and I certainly going to ask you 
about that in the Q and A.
    But we all know that there is a direct correlation between 
our budget and our foreign policy priorities which is why, of 
course, the budget has caused a great deal of concern when we 
saw the initial fiscal year 2018 budget request that called for 
a nearly 30 percent cut to the State Department and USAID.
    And I know that the administration is concerned about 
security and counterterrorism. And to me, when I look at USAID 
and the State Department, you know, we can make a choice. We 
can try to deal with security in addition through the military, 
but also through diplomacy and through development, or we can 
just fund the military. And so that really concerns me. And it 
makes me feel that the fiscal year 2018 budget is extremely 
short sighted.
    I am also concerned about the African Growth and 
Opportunity Act (AGOA), and I didn't--and perhaps you can 
answer this in the Q and A, but I didn't see support for trade 
hubs and some of the other supportive programs. Maybe I am just 
missing the details, but in the CRS document, I don't see that.
    President Bush established PEPFAR and we know that PEPFAR 
has done so much to reduce HIV and AIDS on the continent. I am 
glad that that funding has continued. But I am concerned about 
the elimination of the African Development Bank and Foundation. 
And again, I think that the overall approach is short sighted. 
It is like they picked and chose, but maybe didn't understand 
what the programs were. At least I am hoping that that is the 
case. I am hoping that it can be rectified.
    I was glad that the Young African Leaders Initiative 
(YALI), Power Africa, and Feed the Future is still in the 
budget, but the question is at what level. And the 
restructuring that collapses a bunch of programs together 
certainly causes concern for me. I don't exactly know how that 
is going to work, if that reorganization has actually take 
place or if it is a proposal or what.
    And I will leave it at that and I know we will get into a 
rich exchange during the Q and A.
    Mr. Smith. Thank you, Ms. Bass. Mr. Donovan.
    Mr. Donovan. I will yield, Mr. Chairman.
    Mr. Suozzi. I will yield, Mr. Chairman.
    Mr. Smith. Thank you. I would like to now introduce our 
very two distinguished witnesses and welcome back both of these 
great leaders.
    Beginning with Donald Yamamoto, Ambassador Yamamoto, he 
served as U.S. Ambassador to the Federal Democratic Republic of 
Ethiopia from November 2006 to July 2009. He also served as 
Deputy Assistant Secretary to the Bureau of African Affairs 
from 2003 to 2006 where he was responsible for coordinating 
U.S. policy toward over 20 countries in East and Central 
Africa. He served as U.S. Ambassador to the Republic of 
Djibouti from 2000 to 2003 and was Deputy Director of the East 
African Affairs from 1998 to 2000.
    He entered the Foreign Service in 1980--same year I got 
elected to Congress I would note parenthetically. Former 
assignments include U.S. Embassy of Beijing as Ambassador's 
staff aide and Human Rights Officer, during the Tiananmen 
Square demonstrations and massacre in 1989. In Japan, he was 
Principal Officer at a consulate; in Eritrea, as Charge 
d'Affaires of the U.S. Embassy in Asmara in the Horn of Africa. 
He attended the National War College in 1996 for senior 
training and received a Congressional Fellowship in 1991.
    Ambassador Yamamoto was a graduate of Columbia College and 
did graduate studies in Columbia, receiving a Master's Degree 
in International Affairs. He studied Chinese, Japanese, Arabic, 
and French. During his Foreign Service career, he received four 
individual Superior Honor awards, two group awards, and the 
2006 Robert Frasure Memorial Award for advancing conflict 
resolution in Africa.
    Next we will be hearing from Cheryl Anderson who is the 
Acting Assistant Administrator for the Bureau for Africa at 
USAID. She joined the Bureau as Senior Deputy Assistant 
Administrator in October 2016. Before joining the Africa 
Bureau, she served as the Mission Director for USAID, Southern 
Africa from August 2013. And prior to that, she was Mission 
Director in Ghana and the East Africa Regional Mission.
    Ms. Anderson has over 20 years of development experience, 
mostly in Africa. Her experience in Africa began in Ghana as a 
Peace Corps volunteer. Since joining USAID as a Foreign Service 
Officer in 1988, she has worked in USAID missions in the 
Democratic Republic of Congo, Uganda, Sudan, and East Africa. 
She served as the Deputy Director in the East Asia Office in 
USAID headquarters in Washington, DC, and worked as a program 
manager for Healthlink Worldwide, a U.K.-based NGO.
    She received her Bachelor of Arts degree in International 
Relations from Colgate University in Hamilton, New York, and a 
Master of Science in International Development Management from 
American University right here in Washington, DC.
    Two very experienced and dedicated public servants and 
leaders.
    I would like to now yield to Ambassador Yamamoto.

 STATEMENT OF THE HONORABLE DONALD YAMAMOTO, ACTING ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Yamamoto. I submit my long form for the record.
    Mr. Smith. Without objection, your formal statements, both 
of you, and an attachments will be made a part of the record.
    Ambassador Yamamoto. I want to thank you very much, Mr. 
Chairman, for the great work you have done on the Africa issue. 
And Madam Congresswoman, thank you very much for the letter to 
the Secretary of State on your concerns on the budget. And I 
hope we can address those concerns.
    I also want to highlight a couple of points before I start 
my short form and that is Secretary Tillerson, during his 
comments before the Foreign Relations Committee on June 14th, 
noted that we have a very tight budget and that a lot of 
difficult, challenging decisions have to be made, but it aligns 
with the administration's objective of making America's 
security our top priority.
    So in that regard, Mr. Chairman, and Madam Congresswoman, I 
would like to say that we appreciate the role of this committee 
and subcommittee play in helping the America people understand 
why foreign affairs matters to them. Advancing the values and 
interests of our country, promoting stability in the world does 
matter to our citizens whether it results in jobs, in economic 
opportunities, connections between communities or the safety 
and security we aim to achieve.
    For far too long, images of poverty and insecurity have 
dominated the American perspective on Africa. Yes, these exist 
in Africa, and I would be remiss today if I did not express my 
very deep concern about the continued violence and fighting in 
places such as South Sudan, the Central African Republic, as 
well as the atrocities committed by Boko Haram and ISIS-West 
Africa against innocent civilians of all faiths in Nigeria and 
across the borders of neighboring states. These challenges are 
certainly not the whole story of what is happening on the 
continent, however. Countering the scourge of terrorism and 
resolving conflict represent just a small part of what our 
partnerships on the continent aim to address and to achieve.
    As we consider the purpose and nature of our relationship 
with Africa, it is important to note two things. The first is 
Africa's emergence as a point of global interest and strategic 
convergence. What happens on the continent over the next 
several years will help shape the world's economy, security, 
and well-being. Africa is emerging as a bridge from the Indo-
Pacific region with the larger Atlantic community, while also 
connecting directly to Europe and the Middle East.
    Second, Africa is a continent of friends and partners to 
the United States. With the African Union as the standard 
bearer, the vast majority of African states share our 
commitment to free markets, equitable trade, democracy, the 
rule of law, secure borders, and effective responses to global 
terrorist threats.
    Active engagement in sub-Saharan Africa advances U.S. 
strategic interests. Our close collaboration with the 
interagency community centers on a set of jointly agreed-upon 
priorities for Africa. Together, we remain committed to: First, 
increasing economic growth and investment; second, advancing 
peace and security; third, countering the scourge of terrorism; 
and four, promoting democracy, human rights, and good 
governance.
    The fiscal year 2018 foreign assistance budget request for 
Africa incorporates input from chiefs of missions at each sub-
Saharan Africa post in response to these over-arching policy 
goals and reflects an integrated approach from meeting the 
diplomatic security development challenges in each country.
    The African Bureaus at both State and USAID worked hard and 
hand-in-hand throughout all phases of the budget development 
process. The President's $5.2 billion fiscal year 2018 foreign 
assistance request for Africa supports the administration's 
focus on economic and development assistance to countries of a 
greater strategic importance to the United States such as those 
critical to advancing U.S. national security objectives. 
Difficult tradeoffs were made as we worked to streamline 
efforts to ensure the efficiency and effectiveness of U.S. 
taxpayer dollars. Focusing our efforts allows us to advance our 
most important policy goals in national security interests.
    The fiscal year 2018 request addresses key priorities in 
Africa, including promoting U.S. national security interests by 
seeking to assist partner nations to defeat ISIS branches and 
affiliates and other terrorist organization threats and 
networks in Mali and the Sahel, Nigeria, the Lake Chad Basin, 
Somalia, the Horn of Africa, and elsewhere. The request also 
seeks to assert U.S. leadership and influence by prioritizing 
funding for countries recovering from or facing violent 
conflict to prevent them from becoming safe-havens for 
terrorism and extremism.
    The fiscal year 2018 request also supports efforts to 
prevent global pandemics through robust funding for health 
programs, including the President's Emergency Plan for AIDS 
Relief, or PEPFAR, in order to control epidemics and diseases 
in key countries, and preventing their spread to the United 
States. With the transfer of Ebola funding, the budget request 
also maintains funding for malaria programs. African 
governments are increasingly acting to address HIV/AIDS, 
malaria, and other diseases, as we continue to encourage these 
efforts.
    The fiscal year 2018 request aims to foster economic 
opportunities on the continent by bolstering good governance 
and education programs in Kenya, Rwanda, Uganda, among others, 
that create a positive enabling environment for U.S. 
businesses. It will also provide sufficient resources to 
continue to partner with and provide assistance to key allies 
in sub-Saharan Africa in a manner that protects Americans and 
American interests, advances bilateral and regional 
partnerships, opens new markets for U.S. businesses, and 
promotes American values abroad.
    Many of the biggest security threats that the United States 
faces including terrorism, pandemics, transnational organized 
crime are incubated and thrive in weak, failing, and failed 
states. Recognizing the foundation and importance of democracy, 
human rights, and good governance to Africa's future and to 
U.S. foreign policy objectives on the continent. We will 
continue to encourage the development of effective justice 
sector institutions, strong legislatures, robust civil 
societies, and independent judiciaries, media, and elections-
related bodies, all of which are to improve transparency 
through advancing human rights violations by abusive 
governments so that corruption and failure to deliver these 
basic services and lack of transparency do not create 
vulnerabilities to violent extremism in unstable regions, 
threatening the United States and its allies.
    Across the board, we are striving to move beyond outdated 
models for aid and focus on the objectives that link us as 
partners with the private sector, African governments, local 
non-governmental organizations, civil society, and citizens. 
This must be the way forward in terms of budget realities and 
in recognition of how our relationship with African partners 
have progressed.
    As we continue to streamline our approach to ensure 
efficiencies and effectiveness of U.S. taxpayer dollars, we 
will continue to prioritize resources to align with the 
administration's foreign policy objectives, focusing our 
efforts and coordinating closely with donors that will allow us 
to continue to advance our most important policy goals.
    And a final point, I want to emphasize that the way we have 
prioritized our budgeting for key, crucial areas remains 
proportional to what we have done in the past several years.
    Thank you very much. I welcome your questions.
    [The prepared statement of Ambassador Yamamoto follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ambassador, thank you very much.
    Ms. Anderson.

      STATEMENT OF MS. CHERYL ANDERSON, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Anderson. Good afternoon members of the subcommittee. 
Thank you for inviting me to speak with you today about the 
United States' investments in sub-Saharan Africa. It is an 
honor and a pleasure to have the opportunity to discuss the 
U.S. Agency for International Development's programs on the 
continent.
    United States assistance is having a transformative impact 
in sub-Saharan Africa. Between 2000 and 2015, the percentage of 
Africans living in extreme poverty has declined from 57 to 41 
percent. Under-5 mortality rates have declined from 154 per 
1,000 births in 2000 to 74 children per 1,000 in 2015. And 
African school primary enrollment rates have increased from 61 
percent in 2000 to 79 percent in 2014.
    These dramatic changes were the result of sustained efforts 
by African governments, with essential support from bilateral 
and multilateral development partners, foundations, and non-
governmental organizations. Throughout USAID's history, we have 
confronted some of the world's greatest development challenges, 
and along with our partners, we have demonstrated that our work 
can and does have a measurable impact. Even so, every program 
should look forward to the day when it can end. So every USAID 
mission must continuously evaluate how each program dollar 
moves a country closer to that day.
    These development efforts reap dividends not just for 
Africa, but also for the United States. Administrator Green has 
stressed that the United States will not turn its back on those 
in need.
    Where can we make a real difference? That question drives 
everything we do. USAID has become more selective in how we 
choose the countries and sectors where we will invest our 
resources.
    The total fiscal year 2018 budget request for Africa is 
$5.2 billion. Roughly $3.7 billion or 70 percent of the request 
represents the top 10 country programs. In fiscal year 2018, 
our resources are allocated based on the four over-arching 
policy priorities laid out in the President's Budget Blueprint. 
First, advance U.S. national security interests in Africa 
through programs that support partners in the fight against 
terrorism, advance peace and security, and promote good 
governance. Second, ensure programming asserts U.S. leadership 
and influence. Third, design programs that foster economic 
opportunities and spur mutually beneficial trade and investment 
arrangements for both the American people and our African 
partners. Lastly, we underscore all these efforts with a 
relentless focus on efficiency, effectiveness, and 
accountability to the American taxpayer.
    Many of the biggest external security threats the United 
States faces, including terrorism and pandemics, are incubated 
and thrive in weak, failing, and failed states. The fiscal year 
2018 budget request supports our continued effort to counter 
violent extremism and support conflict prevention and 
mitigation on the continent.
    For example, in Somalia, USAID activities support the 
country's transition from decades of state failure to a more 
stable, democratic ally in the volatile Horn of Africa region. 
USAID's programs challenge extremist ideology and disrupt 
tactics of Islamic State militants and al-Shabaab. Since 2011, 
USAID investments have fostered stabilization in more than 40 
percent of districts in south central Somalia that were retaken 
from al-Shabaab by creating 6,300 new jobs and providing 
education services for more than 21,000 secondary school 
students.
    For more than 55 years, USAID programs have saved and 
improved lives around the world, advanced American values, 
increased global stability, and driven economic growth in 
emerging markets.
    Of the fiscal year 2018 request for Africa, approximately 
80 percent is allocated to global health programs. These 
programs support control of the HIV and AIDS epidemic, prevent 
child and maternal deaths, and combat infectious disease 
threats. They are hallmarks of U.S. leadership in the world. 
However, responding to global challenges is a shared 
responsibility that cannot be met by one nation alone.
    Although Africa still struggles with development 
challenges, the region has experienced rapid economic growth 
and significant poverty reduction, with a number of African 
countries now among the top fastest-growing economies in the 
world.
    Increasingly, foreign direct investment is driving growth 
in Africa, and U.S. assistance is being outpaced by private 
investment. Through Power Africa, a U.S. Government initiative, 
the private sector has invested $14 billion in 57 projects at a 
relatively minimal cost to the U.S. taxpayer.
    Through the USAID Regional Trade and Investment Hubs in 
Ghana, Kenya, and South Africa, we reduce barriers to trade and 
investment, and foster linkages between U.S. and African firms. 
In close cooperation with African countries, USAID facilitates 
trade and also reduces its time and cost.
    We have also prioritized programs that promote 
entrepreneurship, help build capacity in local institutions to 
support free markets, fight corruption, and unlock 
opportunities to formalize the huge informal economy. Our 
investments also help to empower women and youth to advance 
economically, ensuring inclusive economic growth.
    We intend to uphold the administration's commitment to 
ensure effectiveness and accountability to the U.S. taxpayer. 
Rigorous monitoring and evaluation help to ensure the 
effectiveness of USAID's programs. That being said, not 
everything we do always turns out the way we plan, so we will 
continue to manage our risks well, learn from experience, and 
correct course where necessary.
    In conclusion, the United States has a continued commitment 
to a partnership with African governments, partners, and other 
donors grounded in mutual responsibility and respect. USAID has 
a very real role in safeguarding the United States' national 
security and economic opportunities. As we continue to work 
with our partners toward our shared goals over the coming 
months, I look forward to a continued conversation on USAID's 
work in Africa.
    Thank you, Mr. Chairman, Ranking Member Bass, and members 
of the subcommittee. I look forward to responding to your 
questions.
    [The prepared statement of Ms. Anderson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony. To 
begin the questioning, just let me ask you first. In year 2000 
I authored the Admiral Nance and Meg Donovan Foreign Relations 
Act. It passed the House. Wasn't taken up by the Senate so I 
attached it in its entirety to that year's appropriations bill. 
Much of it focused on the issue of security for U.S. personnel 
abroad, whether it be at USAID missions or our Embassies 
themselves with a heavy emphasis on setbacks, securing the 
windows so that they are less vulnerable to terrorist attack. 
And it came right out of the bombings in Dar es Salaam and the 
bombing in Nairobi in 1997 when we learned a painful lesson 
that international terrorism was transnational and that they 
would hit softer targets believing that we would be less 
prepared.
    So my first question really is along the lines of the 
commitment that began then under the law and the appropriators 
have been very faithful and I think diligent in trying to 
ensure that the setbacks and the compounds within which our 
deployed personnel work and our contract workers including a 
number of indigenous people from each of these countries is 
sufficient to protect. And I am wondering if you could tell us 
if, in your opinion, Ambassador, that is true and reflected in 
this year's budget?
    Ambassador Yamamoto. First, thank you very much for those 
efforts. So of our 44 Embassies and we have another 6 
consulates and other offices for a total of 50. And we have 
about 1200 officers and 3200 other agencies working those 
missions, we have about 30 or so missions and offices that have 
been or are under construction under the new standards for 
security. And so those monies have been put to good use.
    The security development, I think the Secretary raised it 
very clearly on diplomatic security and the funding, so that 
continues. We still have several Embassies that are now under 
construction. In fact, this week, we will be opening two new 
chancelleries in Mauritania and in Chad. So thank you very much 
for that work, Mr. Congressman.
    Mr. Smith. I will never forget when Admiral Crowe who then 
headed up the Accountability Review Board and testified before 
my committee then back in 1988 made the case that wonderful 
people from the United States travel abroad, often at great 
risk to themselves from disease, as well as terrorism. We 
should at least ensure that the physical plan and the protocols 
that are in place to protect them are as robust as they can be. 
And that was the reason for the law in the beginning. So I am 
grateful that progress continues under your watch.
    One area of concern with yours in this year's budget 
request, which I think frankly is in the process of being 
overcome through the appropriations process, and that is the 
issue of Feed the Future. In the last Congress, I was the 
author on the House side on the Global Food Security Act with a 
big emphasis on ensuring that nutrition, proper supplementation 
was provided for, and yet this year's budget calls for very 
significant cuts in Feed the Future and elimination of the of 
the Food for Peace program. I don't believe that will happen 
and I wish it wasn't even in the budget request to begin with.
    Already in the appropriations bill, as passed by the House, 
that is largely overcome with bipartisan efforts to ensure that 
that important food security is available. But if you would 
like to speak to that and in a like manner, PEPFAR. A visionary 
bill authored originally by Congressman Henry Hyde who was 
chairman of our full committee, but also especially inspired by 
George W. Bush who said, ``This pandemic must end.'' And I 
remember Henry Hyde explained to him, he said, ``If left 
untreated, this will be like the Bubonic Plague'' and was 
already claiming lives of so many millions of men, women, and 
children in the United States, but also in sub-Saharan Africa 
where it was particularly raging and destroying human life.
    There is a significant cut, as well, in PEPFAR and on the 
good news front, I don't it is going to happen. Already in this 
budget we are talking about the budget that the House has 
passed for appropriations. Talks about $6 billion being 
allocated for the PEPFAR program and through USAID as well. So 
I think it will be overcome by congressional intervention, but 
if you would speak to how important these programs and others--
you know, it is not the nature of both Democratic and 
Republican administrations.
    I remind my colleagues that President Obama sent up budgets 
that cut tuberculosis by 20 percent. We added it all back. He 
had a program that neglected tropical diseases efforts which 
were at at $100 million, cut it by $20 million. We put it back. 
I tried to get it to $125 million, but at least we got it back 
to straight lining.
    And Mr. Biggs and I have introduced a bill that would 
significantly prioritize these horrific neglected tropical 
diseases including worms which about 1 billion people carry, 
which is unconscionable, when we think what that must be like. 
Rather than Feed the Future with food, we are feeding the 
worms. So we really want to ensure that people have healthier 
guts and parasites are destroyed inside of these very 
vulnerable groups of people all over the world, but especially 
in sub-Saharan Africa.
    But if you could speak to PEPFAR and this effort. Again, I 
do think the record should show it this year's budget already 
makes it clear that that money is going back into the budget 
and perhaps you might want to speak to how well utilized that 
money could be to ensure that these vulnerable populations are 
cared for.
    Ms. Anderson. Thank you, Mr. Chairman. I would emphasize 
that as we formulated the budget for fiscal year 2018, we 
worked to reflect the President's America First policy and the 
foreign policy priorities of the administration. So we focused 
our resources on the programs and the countries and the sub-
regions where we felt we could maximize our impact on national 
security, on U.S. economic interests, U.S. influence and 
leadership, and also efficiency, effectiveness, and 
accountability to the American taxpayers.
    So we made some tough choices. And I would like to 
emphasize that at any budget level, we always have to make sure 
that we are efficient with our use of resources. And it is 
always a very good exercise to see how we can be more 
efficient. It is also important for us to look to others to do 
more, including helping our host countries to mobilize domestic 
resources to help mobilize private capital for development 
objectives. That said, we absolutely recognize the importance 
of food security and appreciate the Global Food Security Act.
    Feed the Future has already done quite a bit toward the 
development of the countries in sub-Saharan Africa. We are 
particularly concerned about building resilience to future 
shocks that we know will be coming, especially drought in some 
of the areas of sub-Saharan Africa where we see recurring 
problems.
    We also realize that the work that we do in food security 
and making the value chains more efficient is good for U.S. 
businesses. So we did announce a new set of target countries 
for Feed the Future and we will continue to prioritize our 
resources as much as we can in the countries where we will have 
a good impact.
    On PEPFAR and on health, in general, I think you will see 
in the fiscal year 2018 budget the line item for PEPFAR 
actually went up a little bit. And we recognize the importance 
of continued investments in health and especially in HIV and in 
AIDS.
    Mr. Smith. I noticed in the explanation before, Ambassador 
Yamamoto, the administration said that nobody would lose their 
ARVs. Anybody who was on treatment would continue receiving it. 
And that is important for a number of reasons, obviously. You 
don't want people who are HIV positive obviously getting full-
blown AIDS and suffering the ravages of that deadly disease. 
But I think one of the greater stories that remains largely 
told in policy circles, but not in the general public, is that 
the viral load, as you know, is so significantly reduced to a 
treatment, not just preventive means, but the treatment itself 
down that viral load. So the more we provide treatment the more 
we are lessening or mitigating the transmission of this 
horrific disease. So I am glad to hear of the increase because 
I think it is needed and then some.
    And I do believe, as you have noted, and I have read the 
budget recommendations, we want to get others to do more and 
that is an important concept. And the American taxpayer demands 
that others step up and do more, particularly the European 
Union where much more could be done. With that said, for people 
who are suffering starvation or the ravages of disease, it 
seems to me that we always should be the first with the most to 
make sure that they survive and thrive, even if the others do 
not step up to the plate. That is just my thoughts on that. 
Ambassador.
    Ambassador Yamamoto. Thank you, Mr. Chairman, and really 
for all your great work for the committee. So just to kind of 
emphasize that the overall budgeting, if you look at the $5.2 
billion 2018 request is still over about 81 percent which is 
not really changed in the past, so 81 percent toward health and 
overall healthcare issues.
    But I think what is really important is that over the years 
since PEPFAR has developed and Feed the Future, what the 
Ambassadors are doing and what we are doing with USAID 
directors in the field is doing much more integration. So in 
other words, building on other pots of funding and also 
programs and kind of bring it together. So for instance when 
you see the PEPFAR countries from Cote d'Ivoire, Ethiopia, 
Ghana, Guinea, Namibia, Nigeria, that is just not receiving 
PEPFAR money, but they are also receiving economic support 
funds. The other issue is military assistance to help for 
security issues, education, agriculture.
    The other issue, too, is looking at supporting our NGO 
partners, the faith-based groups, etcetera. And so it is really 
a much more holistic, cohesive group.
    The other thing, too, is I think we have learned from a lot 
of areas. I think when I was the Ambassador in Ethiopia, we had 
a problem about how to utilize all the funding. And I think 
through your guidance and the guidance from USAID, we have done 
a much better job of really utilizing effectively and saving a 
lot of taxpayer money. So thank you.
    Mr. Smith. Ranking Member Bass.
    Ms. Bass. I want to compliment both of you for incredible 
careers and contributions that you have made to our country 
through your service over the years. And you don't need to 
answer this, but I know that you have to support this budget 
and it must be very painful because this is just filled with 
contradictions.
    You ran through, Ms. Anderson, you ran through--I think I 
lost track of some of your points, but U.S. national security 
to advance peace. You talked about U.S. leadership and 
influence and efficiency and effectiveness and accountability. 
I think there was one I missed. Did I miss one?
    Ms. Anderson. U.S. economic interests?
    Ms. Bass. Yes, U.S. economic interests and you also said 
America First. And to me, America First doesn't mean we 
abdicate our leadership role. And so for national security and 
advancing peace and then the budget proposes cutting 
peacekeeping and cutting development. So to me, that is a 
direct contradiction. U.S. leadership and influence, Feed the 
Future is a perfect example of U.S. leadership.
    You know, I think it is one of the best programs we have 
had and the chairman's leadership in it. Instead of us 
providing food to Africa, Africa can feed itself. And us 
providing technology and our scientific expertise so that we 
can build the capacity rather than have this charity approach 
to me is U.S. leadership. We complain about the role of the 
Chinese. Well, you know, this budget has us stepping back in my 
opinion.
    When you are looking for efficiency and effectiveness, I am 
wondering if instead of cutting programs, you are looking at or 
examining any outside contracting that might be done. And you 
know, if that is an area where you could look at cutting 
instead of cutting things like some of the programs that we 
have talked about.
    I wanted to ask you about a couple of things health 
related. It is my understanding and you can tell me if I am 
wrong, but that the budget would dramatically reduce 
reproductive health programs and family planning. And one of 
the problems in Africa is maternal deaths and one of the 
reasons why you have maternal deaths is when women cannot space 
their pregnancy. And so if I am reading it right, what is the 
logic in cutting it back?
    You know, again, we can make decisions about national 
security. We can put all of our resources in the military or we 
can help address some of the root causes for the conflicts to 
begin with. And it seems like this budget is very short sighted 
and why I said it is full of contradictions.
    Now it is a perfect example of why I am thankful we have 
three equal branches of government so that we can push back and 
not fund the way this budget is proposing to fund Africa-
related programs. So I want to ask, am I correct in looking at 
essentially family planning would be zeroed out, if not 
drastically reduced. You can answer that, one of you.
    Ms. Anderson. That is correct. We have zeroed out family 
planning in the fiscal year 2018 budget.
    Ms. Bass. What is the reason? What is the logic for that?
    Ms. Anderson. Policy decision.
    Ms. Bass. Yes, I know it is a policy, but why?
    Ms. Anderson. I would be happy to take your thoughts back.
    Ms. Bass. You know, I know that funding is cut for anything 
related to climate change and unfortunately Africa and a lot of 
the problems that happen in Africa, the natural disasters are 
completely related to climate change. So is that just using the 
budget to express an ideology?
    Ms. Anderson. Again, that was a policy decision. I would go 
back to family planning and note that we continue our 
commitment the health of women and children with our other 
health programs including maternal and child health and malaria 
programming and HIV/AIDS.
    Ms. Bass. Maternal and child health. One of the reasons for 
maternal death are not being able to space your pregnancies. So 
you provide it in one side and then contribute to the problem 
in another way?
    Ms. Anderson. Yes, go ahead.
    Ambassador Yamamoto. And yours was a very cogent and very 
difficult question and the challenges that we had in trying to 
fashion the budget and what decisions are made, but then on the 
other side, too, we are looking at for more efficiencies. I 
will give you one example is on maternity and infant mortality 
rates. So looking at the different pots of money and looking at 
what really makes sense, so for instance, in East Africa where 
you have in many countries and areas one out of every ten will 
die before the age of 5. So if they survive to five is really 
one of our basic USAID campaigns.
    Ms. Bass. Which is our chairman's program as well. First 
1,000 Days.
    Ambassador Yamamoto. It is one of the most effective. The 
areas that we have to depend on contributions from NGO groups, 
the others, faith-based groups, and we really connected with a 
lot of faith-based groups in the United States from Oklahoma to 
Virginia to other places in the Eastern United States.
    Right, it doesn't make up all the issues that we need to do 
and to address, but it makes up a significant. The other part 
is is one of the things that----
    Ms. Bass. What do the faith-based groups have to do with 
it? I am missing your point.
    Ambassador Yamamoto. For instance, in Ethiopia and Somalia, 
you don't have incubators. And so what they have done is they 
have made these skull caps, which is to help.
    Ms. Bass. Oh.
    Ambassador Yamamoto. And then we bring in--it is called, 
the mothers are--we call them kangaroos because what they do is 
because there are no incubators, they hug the child until they 
survive.
    Ms. Bass. Right. Keep the child warm.
    Ambassador Yamamoto. That is right. And then the other 
issue, too, is looking at food aid and food assistance and then 
food development issues to help feed children, etcetera.
    The other issue that is really kind of plaguing us is 
medical care and health care. So for instance, when we were 
doing a data dumping on some of the countries, particularly 
Ethiopia, we were noticing that a lot of doctors, there were 
more Ethiopian doctors outside of Ethiopia than inside 
Ethiopia.
    Ms. Bass. There were more what?
    Ambassador Yamamoto. Ethiopian doctors.
    Ms. Bass. Right.
    Ambassador Yamamoto. In Botswana, even in Washington, DC.
    Ms. Bass. Probably in Los Angeles.
    Ambassador Yamamoto. Yes, Washington, DC. So the issue is 
what do you do? And so we learn from the U.S. program EMTs and 
how to do basic EMT work and having basic healthcare providers. 
And so the low cost, a lot of contributions, and private sector 
support and so that helps to address a lot of the basic 
maternity and infant mortality issues.
    Ms. Bass. When we had a hearing, the Deputy Secretary 
testified before the full committee regarding the State 
Department's redesign plan which really seems like it is a 
mess. I mean you might be able to talk about that, all of the 
combination of programs. But in particular, I asked about a 
special envoy, specifically the South Sudan. And the Deputy 
Secretary thought that the special envoy was put in statute by 
Congress. And that is not the case apparently.
    So what we have been told is that the Department of State 
believes that the responsibilities can be administrative 
realigned to be covered by the DAS within the Bureau of African 
Affairs. And so I want to know if you can provide additional 
details about the DAS that will cover this and how we think, 
especially given--you know again, it is shortsightedness.
    We pass close to $1 billion for famine and then we remove 
the special envoy to South Sudan?
    Ambassador Yamamoto. And so from your travels and visits to 
the region, you see very much the problems in Mali, 1.3 million 
refugees from South Sudan going to Uganda and other problems. 
What we have done on the decision made by the Secretary is that 
we have the envoy back into the Bureau. And so we still have 
those FTE positions, so in other words, the positions.
    So what we want to do is is really kind of refocus and we 
have been coordinating with the P3s and our donor colleagues, 
particularly the special reps that they have from Norway, the 
U.K. And then looking at the African Union and seeing how can 
we, the United States, play a----
    Ms. Bass. I thought we cut the African Union, we cut 
funding to the African Union.
    Ambassador Yamamoto. But the issue is that we are 
coordinating with them because they play a critical role, 
particularly in the high level dialogue run by Ethiopia's 
Hailemariam and Uganda's Museveni with Salva Kiir in Southern 
Sudan. So based on that, we are looking at how we can realign 
and support these efforts and then using our positions to use 
senior officers to play critical roles in support of and also 
taking lead in certain areas. That is something that we are 
still looking at, but I think I have a little more confidence 
now as we look in reshaping and redirect our operations.
    Ms. Bass. So you don't think a special envoy is needed?
    Ambassador Yamamoto. At this point the decision has been 
made that we will not have a special envoy.
    Ms. Bass. That was a good answer. You didn't answer that, 
but I understand that. I really do. I feel like both of you, 
this budget does not reflect your illustrious careers and I am 
sorry that you have to be put in a position to defend it.
    My final question is--I am sorry.
    Ms. Anderson. If I could just make one clarification on the 
development budget for African Union. If you are looking at the 
line items it is showing as zero, but we will be providing 
funding through the regional account.
    Ms. Bass. So the chairman asked you a question, Ambassador, 
about Embassy security. And you mentioned that several 
Embassies were on line to be built. What about the DRC? That 
Embassy, when I went there, the place was falling apart.
    Ambassador Yamamoto. That is an issue that we have been 
working on for years. We have asked President Kabila to give us 
land so we can start building. And that is something that we 
are going to be pushing very vigorously because we really need 
to get our people into safe, secure areas. And that is one of 
our top priorities.
    Ms. Bass. Well, even if he doesn't give land, do we have 
anything in the budget to repair that place? Because literally, 
it looked like it was falling apart.
    Ambassador Yamamoto. And we have done based on DS security 
regulations to look at how we can upgrade what we have now. But 
the bottom line is that we need to have a new Embassy and that 
is what we are looking and focusing on and working with the 
government on.
    Ms. Bass. Thank you. Yield back my time.
    Mr. Smith. The gentleman from New York, Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. I have to attend a 
Middle East and Northern African hearing, so I just wanted to 
ask one question.
    Mr. Ambassador, you touched on it. I think you also did, 
Ms. Anderson, about efficiencies and reviewing where we are 
getting the best results from the efforts that we are making 
and where we are replacing our resources. Can you touch on some 
of the findings that you may have found as you review whether 
or not some of the programs are as efficient as we would hope 
they would be and then maybe some other areas that you might 
look at in the future to see where we would reallocate 
resources so we are getting results for our efforts?
    Ambassador Yamamoto. So as we are looking at the security 
environment right now and the problems we are seeing is flow of 
arms, criminal syndicates going through Central African 
Republic and then posing problems to the G5 countries, those 
are like Mauritania, Chad, Niger, etcetera is what is it that 
we need to do to kind of bolster the security? And the issue is 
that you don't want to do it alone.
    So from the U.N. General Assembly on we have really worked 
very effectively and hard with the key threes, that is the U.K. 
and then France and then other donor countries. And then also 
the African Union and the regional states, so ECOWAS and other 
issues. And then looking at what they are providing assistance 
or what they see the issues are, then looking at our own 
funding that we have given to countries.
    So what we have done is if you look at the budget, you see 
a lot of countries that are being decreased by 20 percent, 30 
percent or what have you. But if you look at the regional 
funding, that is where we are looking at trying to use that as 
assistance or reserve to look at the most critical areas that 
we need to provide assistance. So in other words, we have--I 
will give you some examples on the funding. So we have $131 
million that is going to be Chad-based in country. That is 
Nigeria, Mauritania and Niger. And then we look at the trans-
Sahel and the TSTCP on the west side and the PREACT on the east 
side. And so as we see problems developing, we can use the 
funding from these regional bases to help support and bolster 
these countries' security.
    Mr. Donovan. Ms. Anderson.
    Ms. Anderson. I would say three things. On finding 
efficiencies in our programming, we have had a major push on 
putting more rigor into our monitoring evaluation since 2011. 
And that is good because that is a very good way to look back 
at the evaluations and see where we can find efficiencies.
    A couple of things, when we have very small programs, it 
takes a long time to mobilize and it can be quite costly, but I 
also appreciate Ranking Member Bass' comment about looking at 
some of the big outside contracting, so that is also where we 
will be looking.
    And then on the other side of things, improving our 
partnerships with the host country governments, with civil 
society so that we truly have a partnership in our planning and 
working together toward the same objective because what we 
always want to be doing is working toward the time where we 
don't have to have a big program that is as involved as maybe 
we have previously.
    And another aspect to that is finding ways that we can 
mobilize the private sector, private capital. I think we have 
done a pretty good job in Power Africa and even Feed the Future 
in mobilizing private capital for some of the infrastructure 
and other investments that are needed for development.
    Mr. Donovan. I have to excuse myself, but I thank both of 
you for your service to our country.
    Mr. Smith. Thank you. Dr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. Before I start asking my 
questions, again I appreciate both of you being here. I 
appreciate both of your long service to our country and 
understand that your job as career diplomats are to implement 
the policies of the administration.
    I also do want to just give a shout out to the many 
employees of the State Department for the work that they are 
doing representing the United States both here and abroad under 
difficult circumstances, often having, my opinion, often having 
to implement policies that they don't believe in, but doing 
their job every day.
    I also, as a message to the administration, they are very 
much under cutting our ability to be the great country that we 
are.
    America is a better place and the world is a better place 
when America is engaged globally. We have seen that in the 
second half of the 20th century when we have been leading with 
our values, our values of compassion, our values of leadership 
in health and global health, our values of leadership and 
development.
    The second half of the 20th century was much more stable 
than the first half of the 20th century because of that 
American leadership. And much of that leadership was our 
diplomats and the valued employees of the State Department. So 
I think certainly I speak to many of the members of this 
committee that we will do everything we can as we go through 
the budgeting process to get you the resources and the 
personnel to continue to do that exemplary job. But I thought 
it was very important to make sure those employees that are out 
there representing our great nation understand that many of us 
appreciate that service.
    Now kind of getting back to some of the questions, I 
understand the President talks about an America First policy. I 
think the policy he is putting forth is going to make us weaker 
and have less influence around the world and is not a 
reflection of what our values are.
    Ms. Anderson, I want to make sure I heard correctly, the 
President's budget zeroes out all family planning funds?
    Ms. Anderson. For fiscal year 2018.
    Mr. Bera. And the budget is a reflection of a President's 
values and so forth. That is our best reflection. So my 
opinion, it is appropriate when we talk about family planning, 
that is birth control, that is other forms of contraception. We 
are not talking about abortion because we have not been using 
Federal funds for pregnancy termination. We have been using 
Federal funds and working with NGOs and others historically to 
reduce the number of unintended pregnancies. That, I think, 
most global health experts, and I am a physician who has worked 
internationally, would think that is appropriate.
    My colleague, Ms. Bass from California, has talked about 
the importance of reducing maternal and child mortality and one 
of those causes of maternal mortality is the spacing of 
pregnancies. So if it is in our values to reduce maternal 
mortality, we ought to make family planning funds more 
accessible.
    I haven't asked any questions yet because there is a lot on 
my mind here. I understand that there are Members of Congress 
that are anti-choice, along with those that do want to empower 
women to be in charge of their full reproductive rights. But 
regardless, I think we all want to reduce the number of 
unintended pregnancies. And on May 15th, the State Department 
released guidelines for the implementation of the Mexico City 
policy, the global gag rule which my understanding is for the 
first time will apply to all global health assistance programs, 
many of which are in Africa.
    Now this isn't the first time that this policy has been 
introduced. In fact, it seems to swing from administration to 
administration based on the party that is in charge. But if our 
goal is to reduce the number of pregnancy terminations and 
reduce the number of unintended pregnancies, what I will tell 
you is the last time this policy under George Bush was 
implemented, the number of abortions rose 20 percent as a 
result of curtailing the ability to have family planning out 
there.
    Ms. Anderson, would that be a somewhat accurate number?
    Ms. Anderson. I am not certain I have that kind of data 
right now, but I certainly appreciate the point. Thanks.
    Mr. Bera. Thank you. Earlier this year, I asked Secretary 
Tillerson a number of questions regarding this policy including 
as they implement the Mexico City policy. Would they be 
consulting with partners in the field, monitoring the impact of 
the policy on healthcare access as well as maternal mortality? 
And I think I was told that there would be a 6-month review of 
the policy as it was being implemented.
    Given the significant amount of healthcare funding we 
contribute to the Africa region, I have got a couple of 
questions. The Bureau of African Affairs at State and the 
Bureau for Africa at USAID obviously is playing a role in 
implementing this policy and assessing the potential impact of 
the policy such as again women's access to health care, family 
planning services, rates of unsafe abortion, and maternal 
mortality including the 6-month review.
    Do you have any idea what the time line for releasing the 
6-month review is?
    Ms. Anderson. We are working to fully implement the policy 
and I would be happy to get back to you on that.
    Mr. Bera. If you could, that would be great. Again, as you 
are implementing this policy and again, I am not holding you or 
the wonderful employees of State accountable for this policy, 
but when I questioned Secretary Tillerson, one of the things 
was look, we ought to be checking on is this impacting maternal 
mortality? What impact is it having on folks that are out in 
the field? What impact is it having on women's access to health 
care?
    Certainly, I think many on this committee would have a very 
big interest in how that policy is being implemented.
    I guess my last question and maybe it is for Ambassador 
Yamamoto, I am all for looking for efficiencies, looking for 
ways we can take our Federal dollars and our taxpayer 
resources, partnering those with NGOs that are out there 
working in the field, whether those are faith-based groups or 
folks like the Gates Foundation, etcetera, and looking at ways 
reducing morbidity and mortality and increasing health around 
the world. I just worry with the reduction in certain programs 
it is actually not helping us leverage our dollars. It is 
actually reducing our ability to have impact in the region. And 
I just would be curious about your thought on that?
    Ambassador Yamamoto. Let me give you something that you all 
worked on very hard and that is the AGOA process. And I think 
that more than anything has given a lot of hope to Africa. 
Obviously, a lot of countries don't benefit, but actually in 
many ways they do.
    And we were just going and doing the data numbering and we 
notice that exports from the United States to Africa rose from 
$6 billion in 2000 to $25 billion. That means you are talking 
about well over 35,000 U.S. jobs. But on the reverse side is 
producing and expanding the capabilities for the Africans.
    You know, today, they have a $500 billion total 
manufacturing output. That is going to be $1 trillion in the 
next decade which means that we are going to help create 
hundreds of thousands of jobs in Africa. So that, I think, if 
we can continue to do that and one of the areas that I think in 
spite of the budget cuts and restraints is that if we can 
continue our efforts on fighting corruption, building 
institutions, fighting back on non-tariff trade barriers, it is 
really opening up businesses and trade so that countries in 
Africa, their main trading partner is not going to be Europe or 
the former colonial countries, but each other.
    We have the capability or ability to produce probably $100 
billion in added value over the next several decades. That 
means that that is going to create jobs and when you create 
jobs, you create wealth and security. And those are the areas 
is how do you give them that hope? Those are the fundamental 
questions and issues that we are trying to struggle with and 
what is the best way, the most efficient and effective manners?
    And I think some of the things that we are doing on the 
budget is that we are going to meet those needs through the 
AGOA, through a lot of the programs and projects that you have 
already set up.
    I mean look at, for instance, YALI. So YALI is--we now have 
74,000 applications for 700 fellowships to come to the U.S. And 
once they come to the U.S., they are going to the already 
500,000 YALI groups that are all over Africa being kind of like 
African Ambassadors to the United States and vice versa, 
Ambassadors to Africa, who are supporting and developing and 
expanding this relationship. I think this has really been a 
very good program.
    Ms. Bass. Will the gentleman yield?
    Mr. Bera. Absolutely
    Ms. Bass. You just described YALI which I would agree with 
you 100 percent. YALI is being cut.
    Ambassador Yamamoto. It is, 50 percent. So we are getting 
700 fellowships this year as opposed to 1,000. But they were 
still going to continue to develop the fellowship programs and 
centers out in Africa. That is the issue.
    Ms. Anderson. If I could just chime in? We have had a fair 
amount of interest from private sector companies in 
contributing to YALI, especially the regional leadership 
centers in Africa. And we are hoping to mobilize those 
resources better in the coming years. We do have $5 million 
programmed for the regional leadership centers for 2018.
    Mr. Smith. Mr. Castro.
    Mr. Castro. How is the morale at the State Department?
    You don't have to answer it. I can ask you another 
question.
    Over the last year, there has been a growing call toward 
autonomy or even independence in Anglophone Cameroon. Cameroon 
military has apparently been deployed in these regions and the 
government has reportedly blocked social media and internet 
access on multiple occasions.
    Amnesty International recently reports that up to 17 
protesters died, many by the hands of police. So how is the 
State Department and USAID addressing the situation?
    Ambassador Yamamoto. And thank you for your question. And 
thank you for your concern on the issues. Cameroon is a 
critical core country, not only security-wise, but also 
economic because you know, it forms the oil pipeline from Chad 
into Cameroon.
    We have talked to President Biya. I have been almost on a 
monthly basis several years ago when I was the deputy in the 
Bureau to look at how you do the transition from post-Biya. He 
has been the President for a long time and how do you 
transition, prepare the country for a post-Biya or for the next 
leadership?
    The other issue, too, is how do you prepare and develop 
Cameroon's two groups of French speaking and Anglophone? And 
really, it comes down to does everyone have equal access to 
wealth and resources; two, education. Three is jobs. Four is 
also is there equal opportunities for security and 
opportunities afterwards? And those are issues and challenges 
that we continue to face. So the fundamental issue is right now 
is that we have issued statements calling on the government and 
all sides to refrain from the violence.
    Mr. Castro. But have we confronted them on the violence and 
the abuse and the murder?
    Ambassador Yamamoto. We have on President Biya and the 
government, we have. And we will continue to do so. And in the 
course of my going out to the region is those will be one of 
the first stops.
    Mr. Castro. Thank you. And of course, as you know, this is 
an incredible time for refugees around the world. Many Syrian 
refugees in Europe, I spoke yesterday on the Rohingya Muslims 
who have fled or have been pushed out to Bangladesh, Central 
Americans from the Northern Triangle who have come to the 
United States, and there are also refugees in Africa.
    So my question is these refugees in Somalia, South Sudan, 
and the Central African Republic, when refugees move across 
borders, how have host governments responded in those areas? 
Are host governments able to provide for refugees including 
food, water, shelter, medicine? And what can the United States 
do to address any difficulties that these host governments 
face?
    Ambassador Yamamoto. And you raise the fundamental 
difficult challenges. So if you have 65 million refugees 
worldwide and if you look at the countries that have really 
taken in a lot of the refugees, it is really the countries 
around the areas of crises.
    So if you look at Somalia right now, you have Dadaab 
refugee camp which most of us have gone to. I mean it is the 
size of San Diego. If you look at the 1.3 million refugees 
coming out of South Sudan, going into Uganda, or if you look at 
the refugee flows coming in in Ethiopia, you see now we are 
seeing some flows of refugees of the DRC into neighboring 
countries.
    And so the question is we have the Bureau of Population, 
Refugees, and Migration (PRM), our Refugee Bureau, which looks 
at funding and assisting these countries to support the 
refugees. We also looked at the UNHCR, the United Nations 
organizations. We look at other donor communities in support of 
these refugees. It is difficult. It is long-term, but the issue 
is it has to be immediate response because people are suffering 
as they go across the borders.
    Mr. Castro. Sure. And then if you will indulge me one more 
comment, chairman, just for the record and this subcommittee, 
so much of the work that all of us care about, including the 
chairman's work over the years which I have heard him speak 
strongly on human rights, for example, I believe much of that 
work is undercut by the budget cuts that we are seeing, and 
also by some of the changes in policy.
    I think that we are ceding a lot of ground to other 
countries like China to go into places like Latin America and 
Africa and build stronger relationships than perhaps even some 
of the relationships that we have. And I see that issue only 
growing in the coming years if we continue down this new path. 
But thank you all for being here. Thank you for your testimony.
    Mr. Smith. Thank you, Mr. Castro. I do have one final 
question on peacekeeping, but before we get to that just a 
point. Dr. Bera raised the issues of the Mexico City policy and 
I think people know that it got its name because under Ronald 
Reagan, it was announced at the U.N. Population Conference in 
Mexico City in 1984. And the policy was to say we want to 
protect harmless unborn children and who we contribute to does 
matter. If an organization wants to perform and promote 
abortion, except in the case of rape, incest, and life of the 
mother, and those are the three exceptions contained in the 
Mexico City policy, if they were to do that, we believe that 
the unborn child should be held harmless.
    There are members of this committee, Members of the House, 
and we just had a very divisive vote on pain-capable unborn 
children who at 20 weeks we sought, and it did pass the House 
with a rather significant majority, that pain-capable unborn 
babies ought to be protected. And I, during the course of that 
debate, quoted from a doctor, Dr. Levatino, who used to be an 
abortionist. He performed 1200 abortions himself, over 100 on 
children up to 24 weeks gestation and he told the story before 
the House Judiciary Committee how he would pull arms and legs 
off of a child and he was numb to it. He felt it was an 
abortion, so therefore it was justified. And then he had a 
complete, total, 180 degree change of heart and said, ``What am 
I doing? I am pulling a baby apart.''
    We know for a fact that children as early as 20 weeks 
survive at 20 weeks' gestation. And that they are in nurseries, 
intensive care nurseries. And one of the doctors that I quoted 
as well, who works in an intensive care neonatal unit talked 
about her patients at 20 weeks, that if she were to go and pull 
and arm or a leg, delimb that the child, that that child would 
suffer would be intense.
    So I believe, it is not shared by everyone and I respect 
all people, whatever their view, that the most fundamental 
human rights issue of our time is protecting the innocent and 
the most vulnerable from violence.
    And I do believe that abortion is violence against children 
and it also, and I work with a number of women who are post-
abortive, that there are consequences for the women as well, 
particularly psychologically. Not all would agree with that, 
but there is no doubt that when you dismember or chemically 
poison an unborn child, it has a horrific impact on the child, 
the older he or she is, and the evidence is overwhelming, not 
even suggestive, but overwhelming that they feel pain and they 
feel even more excruciatingly in a much deeper way than we do 
because from 20 weeks to 32 weeks gestation, there are more 
receptors on the skin area available to the dismemberment and 
the child just does feel it even more.
    Dr. Anand, who is an expert, has stated that in sworn 
affidavits on behalf of the Justice Department in courts of 
law. I say that because there will be obviously on-going fights 
on this issue. President Obama reversed the Mexico City policy 
when he took office. President Clinton did the same thing. 
Ronald Reagan initiated it. George Herbert Walker Bush 
continued it and George W. Bush reinstated it.
    I am very proud of the administration for extending it to 
global health so that the child is held harmless. These are 
babies. The first amendment I offered in the U.S. House of 
Representatives in committee, in the Foreign Affairs Committee, 
was to provide $50 million to the Child Survival Fund to 
promote immunizations, oral hydration therapy, growth 
monitoring, and breast feeding, the four pillars of child 
survival.
    Unfortunately, Ronald Reagan's David Stockman had suggested 
we take the $25 million that we have in that program and we get 
rid of it. I doubled it by offering my amendment. I do believe, 
respectfully, to those who disagree, that abortion is 
antithetical to child survival because it literally takes the 
life of that child and destroys him or her and 
disproportionately women, girls, the girl child is killed.
    I chair the China Commission. We just released our most 
recent human rights report, and because of sex selection 
abortion, China is missing 62 million or more girls. Girl 
children are killed. More than that have been killed the sex 
selection abortion, but in my humble opinion, this is an act of 
gender crime when you single out a child at 5 months or so 
through ultrasound, discover that it is a girl and it was 
admitted, even was put out that said the three most dangerous 
words that could be uttered in some parts of the world, ``It is 
a girl,'' because then she is targeted for elimination and 
extermination, simply because she is a girl.
    I again want to applaud the administration for saying we 
will provide those monies and you will get more than what you 
asked for for a variety of programs, including family planning, 
but we agree with the caveat that we want to hold harmless that 
child from dismemberment or chemical poisoning because that is 
the two ways that abortions are effectuated.
    Let me just say, ask one question, and my final question on 
peacekeeping. I am concerned that the administration's budget, 
the fiscal year 2017 enacted level was $1.9 billion. The 
proposal is for $1.2 billion. There are 21 peacekeeping efforts 
under way around the world. Six are under the auspices of the 
African Union; 15 under the auspices of the United Nations.
    And Karen Bass and I, when we went to South Sudan, we both 
have been there a number of times, we went there in June. We 
were happy to see the UNMISS, the U.N. deployment there had 
greatly fine-tuned and embedded their rules of engagement 
because they had been wanted in many, many ways. I had been 
there a year before that and frankly they were not really 
protecting civilians. But we, I think you would agree, we found 
that there was an increased effort to try to be on the 
protection side and really--my question is, my concern, and I 
think it is shared by every member of this subcommittee, is a 
cut in peacekeeping, even though we always want them to do more 
with less, we want other countries, particularly in the EU to 
step up and perhaps donate more, and I agree with that.
    But it is a bargain when it comes to deployment of getting 
troops highly trained and in Africa, they are mostly African 
troops, not all of course, but for the U.S. military, this is 
incredible value added and for the civilians, the women and 
children, especially who suffer in these countries from rogue 
militaries, as well as insurgents and terrorists, it is the 
difference between life and death.
    I want to encourage you to do what you can--even more. I 
think personally both of you would be more supported, but even 
in the administration to say this is a really good deal for 
protection, making sure that the peacekeeping funding is as 
high as it could possibly be. And I say that with one other 
caveat that I know what you are doing. As you know, I am the 
author of the Traffic and Victims Protection Act and I work on 
that issue every single day.
    When we found out in the Democratic Republic of Congo that 
the peacekeepers themselves were raping children, as young as 
13, there was an outrage in a human rights violation with very 
few parallels. I know that the U.N. peacekeeping leadership 
have gone through great lengths to try to really reign in on 
that egregious practice and have done so very successfully. It 
is not perfect. Never is, but I want to applaud them in New 
York and those who are involved with this effort.
    Jane Holl Lute, who was one of the ones who helped get Kofi 
Annan to enact or put into place the zero tolerance policy, but 
again, our Government, obviously, our TIP Office, State, and 
USAID, all of us together need to be pushing to make sure the 
peacekeepers are always on the side of protection and never on 
the side of exploitation. But if you could take that back about 
the $1.9 billion and I think that needs to be augmented upwards 
simply because of more need that is out there for peacekeeping, 
if you want to speak to that.
    Ambassador Yamamoto. We will. And just to make one 
response, so yes, absolutely correct that the peacekeeping is 
critical and again, I think the regional funding is going to 
help us support a lot of the areas where we have challenges 
that we have today, the G5 in the Central Africa Republic area 
or in the future which may pop up which we don't perceive now. 
But just looking at all of the funding that the President has 
allocated, we are seeing them coming in to Africa from the $131 
million for the Lake Chad initiative. We have $121 million for 
the trans-Sahel issue and $200 million for East Africa.
    But you are absolutely correct, we are going to look very 
hard at how we can address security needs. But one thing that 
really stands out has been the ACOTA process. We have just 
completed the training of over 300,000 African troops from 26 
countries and as you rightly say, Mr. Chairman, 70 percent of 
all of the peacekeepers in Africa are from Africa, 70 percent. 
Eighty-four percent of all U.N. peacekeepers are in Africa. And 
thanks to Leahy vetting as well, those troops have been very 
supported, and so to contain and to change that mindset of 
these rogue armies and others in Africa.
    Can I just make one more comment off the record? Not off 
the record, but I mean in addition to the record. Yes.
    I know Congressman Castro made one comment, but the issue 
comes in and let me just say for my colleagues and I at the 
State Department is that I was--I worked at the National 
Defense University looking after basically our future leaders 
in the military and foreign affairs. And I was called and said 
come back to the State Department to help the Africa Bureau. 
Well, that is not going to be like--not even announced. I said 
yes, of course.
    Coming back to the Bureau really as a senior officer, our 
job and our commitment and certainly my colleagues are the same 
as to how do we develop, how do we mentor our officers? I have 
been away 3 years and I think we have probably the youngest 
Bureau in the Department of State. I mean they are really 
young. And so I think my job and the job of our senior officers 
is really to mentoring, to train, and to develop them as future 
diplomats.
    And the other issue, too, is that I have been honored to 
work on our redesign on personnel reform. How do we develop and 
train our future officers? How do we do better mentoring? And I 
think that I am really enthused about and that is what gets me 
up every day and that is what I want to every single solitary 
day.
    Ms. Bass. I appreciate that and I know from your general 
enthusiasm that your morale is high and I think that is great. 
I don't know that that translates throughout the Department, 
but I think it is really important to have your spirits 
uplifted.
    I just wanted to mention a couple of things in terms of the 
USAID, in particular, is that I hope when a reorg. is happening 
that we look at doing foreign aid much more like the Feed the 
Future, Electrify Africa model, where it is not just about--it 
is not just charity. And you know a continent like Africa has a 
capacity to do for itself and we shouldn't just look at foreign 
aid as supplying resources to our own NGOs because then you 
have a model where it never ends and I don't think that that 
should be the case. And obviously, the NGOs are very important. 
There is enough poverty to go around, so it is not like they 
are going to go out of business if, you know, our focus is more 
on building self-sufficiency rather than providing direct 
services.
    I appreciate my colleague's comments and I appreciate that 
he also respects that people see things differently and the two 
of us do in some areas, but I think where we have a common 
perspective is on the family planning side and we were both in 
South Sudan. We were in the refugee camps and you were in 
northern South Sudan. Was that Bidi Bidi?
    Ambassador Yamamoto. Unity State.
    Ms. Bass. Unity State. And there were all of these babies 
and it just broke my heart because I knew that the majority of 
those babies were not created by partners. They were created 
through rape. And we saw the children right next to bodies of 
water and it just made me scared to death at how many drowning 
deaths they must have in that camp. And so I think the best way 
to prevent abortion is to provide family planning. And I don't 
think those women chose those pregnancies. Those pregnancies 
were forced on them. And so you know, we should look at that. 
We are zeroing it out and once again, I think it is just an 
example of the hypocrisy of a lot of what is proposed in the 
budget. And I am just glad that as Congress we cannot follow 
and reverse some of the proposals that are put forward by the 
administration. Thank you.
    Mr. Smith. Anything else you would like to add before we 
close?
    Ms. Anderson. Just appreciate your comment about the 
redesign and we have submitted our proposal, but we are keeping 
it close hold for now, so I am not in a position to talk about 
it, but we do look forward to consulting as soon as we can and 
your points are very similar to the points that Administrator 
Green makes every day in terms of real partnerships and moving 
our host country partners closer to self-sufficiency.
    Mr. Smith. I want to thank both of you for your very, very 
noble service to our country. Thank you for your presentations 
today. We look forward to working with you going forward. The 
hearing is adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

                                          

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
